HHS/OIG - Audit,"Review of Requests for Anticipated Payment Under the Medicare Home Health Prospective Payment System at Palmetto Government Benefit Administrators, LLC Between October 1, 2000 and April 26, 2001"(A-06-01-00027)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Requests for Anticipated Payment under
the Medicare Home Health Prospective Payment System at Palmetto Government Benefit
Administrators, LLC between October 1, 2000 and April 26, 2001," (A-06-01-00027)
September 28, 2001
Complete Text of Report is available in PDF format (1.2 MB).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of requests
for anticipated payments (RAPs) under the Medicare home health (HH) prospective
payment system (PPS) at Palmetto Government Benefits Administrators, LLC (Palmetto).  Due
to system problems with the Fiscal Intermediary Standard System (FISS), Palmetto
improperly paid about $15 million to home health agencies (HHAs) for non-covered
and denied charges.   We recommended that Palmetto (i) take action to recover
improperly paid RAPs and (ii) implement procedures to ensure that future
overpayments are identified and recovered timely.  Palmetto stated it had
manually cancelled the improperly paid RAPs and recouped 95 percent of the amount
due.  We did not perform any tests to verify that Palmetto cancelled these
improperly paid RAPs and correctly calculated the amount systematically recouped.
We plan to follow-up on Palmettos recovery actions in the future.